<html>
<title> - REVIEW OF E-RULEMAKING COMMENT SYSTEMS</title>
<body><pre>[Senate Hearing 116-114]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-114

                 REVIEW OF E-RULEMAKING COMMENT SYSTEMS

=======================================================================

                             JOINT HEARING

                              BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                and the

                            SUBCOMMITTEE ON
                   REGULATORY AFFAIRS AND MANAGEMENT

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            OCTOBER 24, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-895 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                      Thomas Spino, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
JOSH HAWLEY, Missouri                JACKY ROSEN, Nevada

            Andrew Dockham, Staff Director and Chief Counsel
                John Kilvington, Minority Staff Director
                      Kate Kielceski, Chief Clerk



       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
ROB PORTMAN, Ohio                    KYRSTEN SINEMA, Arizona
MITT ROMNEY, Utah                    THOMAS R. CARPER, Delaware
RICK SCOTT, Florida                  JACKY ROSEN, Nevada
MICHAEL B. ENZI, Wyoming
                      Chris White, Staff Director
                     James D. Mann, Senior Counsel
                Eric A. Bursch, Minority Staff Director
         Mallory B. Nersesian, Subcommittee and Document Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator Lankford.............................................     4
    Senator Sinema...............................................     5
    Senator Romney...............................................     6
    Senator Hawley...............................................    16
Prepared statements:
    Senator Portman..............................................    31
    Senator Carper...............................................    35
    Senator Lankford.............................................    37
    Senator Sinema...............................................    39

                               WITNESSES
                       Thursday, October 24, 2019

Elizabeth Angerman, Principal Deputy Associate Administrator, 
  Office of Government-Wide Policy, U.S. General Services 
  Administration.................................................     7
Dominic Mancini, Acting Director, Office of Information and 
  Regulatory Affairs, Office of Management and Budget............     9
Ashley Boizelle, Deputy General Counsel, Federal Communications 
  Commission.....................................................    10
Seto J. Bagdoyan, Director of Audits, Forensic Audits and 
  Investigative Service, U.S. Government Accountability Office...    12

                     Alphabetical List of Witnesses

Angerman, Elizabeth:
    Testimony....................................................     7
    Prepared statement...........................................    40
Bagdoyan, Seto J.:
    Testimony....................................................    12
    Prepared statement...........................................    51
Boizelle, Ashley:
    Testimony....................................................    10
    Prepared statement...........................................    47
Mancini, Dominic:
    Testimony....................................................     9
    Prepared statement...........................................    44

                                
                                APPENDIX

Staff Report and Appendix........................................    64
Number of FCC Filings Chart......................................   215
Regulations.gov chart............................................   216
Federal Communications Commission Chart..........................   217

 
                 REVIEW OF E-RULEMAKING COMMENT SYSTEMS

                              ----------                              


                       THURSDAY, OCTOBER 24, 2019

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                        and Subcommittee on Regulatory,    
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 10:04 a.m., 
in room SD-342, Dirksen Senate Office Building, Hon. Rob 
Portman and James Lankford, Chairmen of the Subcommittees, 
presiding.
    Present: Senators Portman, Lankford, Romney, Hawley, Scott, 
Sinema, and Hassan.

            OPENING STATEMENT OF SENATOR PORTMAN\1\

    Senator Portman. Welcome, everybody. This is a joint 
hearing of the Permanent Subcommittee on Investigations (PSI) 
and the Regulatory Affairs and Federal Management (RAFM) 
Subcommittee. I hope it is a practice we will continue. I think 
it makes a lot of sense. PSI, which is the investigative 
Subcommittee, has issued a report\2\ today that is of great 
importance in ensuring Americans can have a voice in Federal 
regulations, so I think it is appropriate that we have a 
combined hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Portman appear in the 
Appendix on page 31.
    \2\ The report referenced by Senator Portman appears in the 
Appendix on page 64.
---------------------------------------------------------------------------
    I want to welcome Chairman James Lankford and Ranking 
Member Kyrsten Sinema. They are on the Regulatory Affairs 
Subcommittee.
    With regard to PSI, the Ranking Member is Tom Carper. He 
was looking forward to his hearing. He and his staff were very 
engaged in the report. He is unable to be here because he is in 
Delaware this morning attending a funeral for a very close 
friend of his. He sends his regrets to our witnesses, and he 
asked that I submit his opening statement for the record,\3\ 
which I do now, without objection. He also, by the way, 
submitted plenty of questions that I think Senator Sinema and I 
will both be asking to be sure that his voice is heard in this 
hearing.
---------------------------------------------------------------------------
    \3\ The prepared statement of Senator Carper appear in the Appendix 
on page 35.
---------------------------------------------------------------------------
    As members of a free and open democracy, it is critical 
that American citizens be able to influence and inform the laws 
and regulations that govern them. I think we all agree with 
that.
    Whether agencies are setting guidelines on the safety of 
the food we eat, regulating the emissions standards of the cars 
we drive, or adjusting the fees we pay to visit our national 
parks, the agency rulemaking process has a big impact on 
Americans' lives.
    That is why over 70 years ago, the U.S. Congress gave the 
American people the ability to comment directly to Federal 
agencies on proposed rules so agencies would consider the views 
of the people who will be most directly affected by them.
    When that system is working well, government agencies can 
get constructive feedback before they finalize their rules. 
More importantly, it gives the rulemaking process greater 
transparency the public deserves and lets Americans have their 
say.
    With the rise of the Internet over the past few decades, 
Congress aimed to modernize that commenting process. In 2002, 
we passed a law requiring the Federal commenting system to be 
put online with the goal of giving more Americans an easier way 
to have a voice. That resulted in the platform Regulations.gov 
and other agency platforms to accept comments.
    It was a good idea. Americans should be able to communicate 
easily with their government about the issues that affect them.
    What we have found here at the Permanent Subcommittee is 
that, to be frank, we got complacent. Over the years, across 
both Republican and Democrat administrations, these systems 
have become outdated and wide open to abuse. What is worse, 
right now there is no game plan in Congress or in the agencies 
for how we can correct this moving forward.
    Many of these problems are not new. As witnesses know well, 
the U.S. Government Accountability Office (GAO) issued a report 
back in 2003 noting that it was difficult to search 
Regulations.gov and that proposed rules and other documents are 
not posted using consistent terminology. These were similar 
issues to those raised by the Administrative Conference, which 
is the Federal body that offers improvements to the 
administrative process, in its December 2018 report.
    Regarding that same GAO report, by the way, back in 2003, 
former Senator Joe Lieberman noted that the GAO had found the 
Environmental Protection Agency (EPA) had made the least 
progress of all major regulatory agencies in using 
Regulations.gov, which, he said, ``raises questions about why 
EPA was designated the lead agency for the administration's e-
rulemaking initiative.'' He may have been prescient. 
Regulations.gov was transferred from EPA to the General 
Services Administration (GSA) only 24 days ago. It took a 
while, but it has happened. That is, again, one reason it is 
hopeful to me that we may have some changes, and it is an 
appropriate time for us to have this hearing.
    The report that Senator Carper and I put out today should 
be a wakeup call to all of us, in the agencies and here in 
Congress. It shows just how broken these commenting systems 
have become.
    To name a few examples in our report:
    Thousands of comments submitted under stolen identities 
with no recourse for the identity theft victim to remove the 
comment from the system;
    Comments posted by dead people, including Elvis Presley, 
Richard Nixon, and many others;
    Comments containing the entire text of the 1,225-page novel 
``War and Peace'';
    Comments containing threats of violence against government 
officials and comments with excessive profanity.
    For one notable rulemaking relating to the repeal of net 
neutrality, the Federal Communications Commission (FCC) comment 
system contains 17,482 ``F'' words--a record.
    What is really ironic is that the FCC is the agency that 
polices our television and radio airwaves, of course, and they 
are the ones who fine broadcasters thousands of dollars for 
airing profanity, but now that same type of content, profanity, 
sits on their own comment platform.
    That is just part of the broader problem the FCC has had 
with their comment system. Most of the comments on the FCC 
platform are just noise that do not advance the rulemaking 
process. That includes a half million comments traced to 
Russian email addresses. Let me repeat that: 500,000 comments 
traced to Russian email addresses.
    On top of that, nearly 8 million comments came from email 
domains associated with FakeMailGenerator.com. Eight million. 
Even though these problems have been clear since at least 2017, 
the FCC has not taken steps to address them.
    The Wall Street Journal found that in that same 2017 FCC 
proceeding, in a random sample of 2,757 comments, 72 percent of 
respondents they surveyed had not submitted the comments that 
were posted under their names. This was a Wall Street Journal 
investigation showing that 72 percent of the time respondents 
said, ``That was not my comment.''
    The Pew Research Center analyzed the 24 million comments 
the FCC received on this rulemaking and found that only about 6 
percent of all of the comments were individual, unique 
comments. The other 94 percent were submitted multiple times--
in some cases, hundreds of thousands of times.
    Pew also found that some commenters posted computer viruses 
as comments, and the FCC left those comments on its platforms. 
Pew said that meant that members of the public trying to review 
those comments would end up having their computers infected by 
malware on a government site. An FCC Commissioner we 
interviewed for our report confirmed this finding.
    While the FCC has its own comment platform, the rest of the 
government uses Regulations.gov, which is run by a committee 
led by the General Services Administration and the Office of 
Management and Budget (OMB). Just like the FCC's system, 
Regulations.gov has been abused and overrun with spam.
    We repeatedly found comments posted on Regulations.gov 
using stolen identities. When we followed up on this with a 
dozen agencies that use Regulations.gov, we found none of them 
reported taking steps to prevent comments from being posted 
under stolen identities. None of them. In fact, only the 
Commodities Futures Trading Commission (CFTC), reported that it 
flagged comments posted under false identities for law 
enforcement.
    Part of the problem is that right now, each agency that 
uses Regulations.gov has its own policies regarding whether to 
remove or redact a comment, so there are currently no 
consistent guidelines for removing abusive or spammed comments 
from the site.
    This needs to change. The notice and comment process is a 
crucial part of our regulatory system, and it should function 
with integrity and consistency.
    At its best, the comment process allows everyday Americans 
to be heard by their government, ensures that agencies write 
rules based on the best information possible, and helps inspire 
public confidence in the rulemaking process.
    At its worst, clogging the system with unrelated, false, 
and profane comments keeps legitimate comments from being heard 
and misleads the public and sometimes the agencies regarding 
public sentiment about a proposed rule.
    We have to be better than that to ensure that a thoughtful, 
real comment is not lost, like a needle in a haystack.
    We are not here to point fingers for letting this happen. 
As I said earlier, this is an issue where both parties in 
Congress and the past three Administrations have dropped the 
ball over the years. My hope instead is that this hearing will 
be the start of a serious bipartisan conversation about 
improving these systems. I hope to work with all of the 
witnesses here and my colleagues on this panel to help build on 
the report's findings to produce legislative solutions to some 
of these problems.
    I appreciate the fact that the Subcommittee on Regulatory 
Affairs and Federal Management is here, and I would now like to 
ask the Chairman of that Subcommittee, Senator James Lankford, 
for his opening statement.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Mr. Chairman, thank you so much for 
pulling this together, for the report that is here, for the 
witnesses, and your own individual preparation for this. This 
is one of those things that is behind the scenes that just 
needs to get solved. Americans want to know that when they can 
comment, the comments are heard, that they have the ability to 
be able to have those comments read, and that they do not get 
lost in the stack of other comments that are not helpful in the 
process, that are intentionally designed to be able to distract 
rather than actually to be able to help the process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    This whole table knows and many people here know about the 
Administrative Procedures Act (APA). It allows interested 
persons an opportunity to participate in the rulemaking 
process. That is a good gift to Americans so that they know 
they are actually being heard.
    The Administrative Procedures Act's legislative history 
shows it was designed to be the minimum agencies were required 
to be able to provide for actual engagement. We have had 
Executive Orders (EO) 12866 and 13563 allowing additional rules 
to be able to get involved to be able to find ways for more 
people to be involved in the process. That is helpful.
    Today we are talking about are there actually road blocks 
in the process actually contributing, not just an easier way to 
contribute but the road blocks to actually getting involved.
    There are multiple websites to be able to navigate through. 
If anyone is not a professional in trying to be able to work 
their way through Regulations.gov at times, it is difficult to 
be able to find out whether this is a proposed rule, whether it 
is a finalized rule, whether there is additional information 
somewhere else on it, or find out what comments were made.
    If someone manages to wade through all these issues and 
actually submit a comment, then hope they the agency has not 
already made up its mind, and they want to know did that 
comment get there in time and is it actually going to be heard.
    To address this problem, Senator Sinema and I introduced 
the Early Participation in Regulations Act, which would require 
an advanced notice for major rules. That bill passed out of 
this Committee with bipartisan support. Our focus was not to 
try to get less comment but to get earlier comment and make it 
substantial, so that we would know that every entity, when they 
are thinking through a rule, they have the ability to be able 
to actually be heard in the process and get it heard.
    I agree completely and I am not going to repeat the things 
that Senator Portman was saying about all of the issues that 
are currently going through the system, especially in the FCC, 
the number of foul words that are in it, the death threats that 
are in it. I only have one thing to be able to push back on. He 
mentioned that there are comments that are there from dead 
people as well, and he mentioned Richard Nixon and Elvis 
Presley. I can go with him on President Nixon being gone, but I 
am still holding out for Elvis Presley still being alive. 
[Laughter.]
    We will just put that one in dispute as well.
    Thanks for holding this hearing. It is a much needed topic.
    Senator Portman. Great. Hope springs eternal on Elvis. 
Senator Sinema.

             OPENING STATEMENT OF SENATOR SINEMA\1\

    Senator Sinema. Thank you, Chairman Portman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Sinema appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    First, I want to offer my condolences to Tom for the loss 
of his dear friend, and our thoughts are with him today.
    Thank you to all of our witnesses for being here today. 
When I hear from Arizonans and Arizona business owners, they 
tell me how difficult it can be to make sure their voices are 
heard in the regulatory process. They want to be good actors in 
their communities, but complex and burdensome rules coming out 
of Washington can make it more difficult for them to thrive.
    Hardworking Arizonans want to comply with sensible rules, 
but they also want to be heard when Washington makes rules that 
affect their bottom lines. It is frustrating when Washington 
does not seem to listen. This is why the regulatory comment 
system is so incredibly important to our democracy. It is the 
one time in our regulatory process where small business owners 
and everyday citizens can talk directly to the people who are 
making the rules.
    The comment system lets everyday Arizonans tell Washington 
that there is a better way to do something or a cheaper system 
that works just as well. Perhaps they have developed a company 
best practice that goes beyond the requirements in the proposed 
rule. We must protect the commenting systems from abuse by bad 
actors posting with these stolen names. We must stop bot farms, 
whether down the street or across the globe, from interfering 
with such an important government function.
    We must also make sure that no proposed fix to the system 
gets in the way of allowing any person or business to provide 
opinions, studies, or data to an agency and help improve the 
final rule. I am looking forward to hearing from our witnesses 
today.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Sinema. Thanks for 
being here.
    Senator Romney, would you like to make an opening 
statement?

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Yes, thank you, Mr. Chairman. I appreciate 
the opportunity to be here today, and I appreciate the 
witnesses and their willingness to focus on this important 
issue.
    I represent a State with millions of acres of Federal land. 
About 70 percent of our State in Utah is Federal land, and 
obviously, the integrity of the commenting system is very 
important to the residents of our State because when agencies 
like the Bureau of Land Management (BLM) are going to issue 
rules, these comments can have an impact on these rules. 
Individuals in many cases feel that people off in Washington 
are making decisions that affect their lives in a very dramatic 
way, but their voices are not heard. Clearly, when there are 
reams and reams of fake comments being made, people who have a 
legitimate concern feel that their particular voice is not 
being heard.
    I would specifically request that as you consider the 
adjustments necessary to protect the integrity of our comment 
system, you give consideration to situations like this where, 
in rural parts of our country--and I am thinking of rural parts 
of my own State--it is very important for people to have their 
voice heard and to know that it is being heard by people that 
are far away that may not be terribly familiar with their 
circumstances and how a rule might dramatically affect their 
life.
    I would hope that there is some way for those people whose 
lives are dramatically affected to have a very clear and 
convincing voice as rulemaking is being considered, and the 
need to remove from our system fake voices would give people 
who feel that they are not connected with decisionmaking in a 
real way a much stronger voice and a much greater confidence 
that people were listening to them and that Washington actually 
cared about the interests of people in rural Utah, in rural 
Missouri, in rural corners of our Nation as a whole.
    I just want to underscore, Mr. Chairman, and to each of the 
people who are testifying today, that this capacity of the 
American people to comment on a potential rule is critical and 
elemental as part of their conviction that our democracy is 
working and that Washington and the government is intent on 
being aware of their concerns and reaching decisions that 
actually are in the best interests of themselves and of our 
Nation.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Romney.
    Senator Hassan is going to hold off until questions, and 
let us now welcome our witnesses this morning.
    Ms. Beth Angerman is here, Principal Deputy Associate 
Administrator for the Office of Government-Wide Policy at the 
General Services Administration.
    Mr. Dominic Mancini is here. He is the Acting Director of 
the Office of Information and Regulatory Affairs (OIRA) at the 
Office of Management and Budget.
    Ms. Ashley Boizelle is here. She is the Deputy General 
Counsel (GC) of the Federal Communications Commission.
    Mr. Seto Bagdoyan is here. He is the Director of the 
Forensic Audits and Investigative Service team at the 
Government Accountability Office.
    We thank you all for being here. We in this Subcommittee 
have a rule to swear in our witnesses, so at this time I would 
ask for you to please stand and raise your right hand. Do you 
swear that the testimony you will give before the Subcommittee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Ms. Angerman. I do.
    Mr. Mancini. I do.
    Ms. Boizelle. I do.
    Mr. Bagdoyan. I do.
    Senator Portman. Thank you all. Please be seated. Let the 
record reflect the witnesses all answered in the affirmative.
    We will be using a timing system today. All of your written 
testimony will be printed in the record entirely, and we would 
ask you to try to limit your oral testimony to 5 minutes.
    Ms. Angerman, we will hear from you first.

TESTIMONY OF ELIZABETH ANGERMAN,\1\ PRINCIPAL DEPUTY ASSOCIATE 
 ADMINISTRATOR, OFFICE OF GOVERNMENT-WIDE POLICY, U.S. GENERAL 
                    SERVICES ADMINISTRATION

    Ms. Angerman. Thank you very much. Good morning, Chairmen, 
Ranking Members, and the other Members of the Subcommittees. My 
name is Beth Angerman, and I am the Principal Deputy Associate 
Administrator for the Office of Government-wide Policy at GSA. 
Thank you for inviting me here today to discuss GSA's recent 
assignment as the Managing Partner for the e-Rulemaking Program 
and GSA's plans to effectively execute this important and new 
area of responsibility.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Angerman appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    While the Environmental Protection Agency has managed this 
program since 2002, on July 1, 2019, the OMB announced that GSA 
was to become the new Managing Partner for the program. GSA was 
selected as the Managing Partner because the Administration 
recognized the important synergies that could be achieved by 
moving the e-Rulemaking Program to GSA. This transition became 
effective October 1, 2019.
    OMB made the decision to designate GSA as the Managing 
Partner as, one, it is consistent with the President's 
Management Agenda's goal for Centralized Mission Support 
Capabilities in the Federal Government; two, allows GSA to 
leverage its technology modernization expertise; and, three, 
builds on the Regulatory Information Service Center (RISC), 
which supports the Unified Regulatory Agenda and is already 
housed at GSA.
    To manage e-rulemaking, GSA has established the Office of 
Regulation Management under my office. This will enable GSA to 
create a more integrated and streamlined Federal rulemaking 
program using modernized technology.
    GSA's overarching vision for Rulemaking Modernization is 
three-fold:
    First, to better integrate data and information technology 
(IT) between the program and other systems to support data 
analytics;
    Second, to apply innovative technology solutions to promote 
public access, accountability, and transparency;
    Third, to provide a quality shared service to modernize and 
standardize the technology platform while also reducing 
duplication.
    With that in mind, the e-rulemaking program is a shared 
service that provides the public with one-stop access to review 
electronic dockets and electronically submit comments on 
proposed rulemaking for multiple Federal agencies. It is 
compromised of both the Federal Docket Management System 
(FDMS), used by partner agencies to create electronic dockets, 
and Regulations.gov, which allows the public to interact with 
those dockets.
    Participation is voluntary, and the shared service is 
funded through interagency agreements with those that 
participate. As of today, there are 221 Federal rulemaking 
organizations, including subcomponents of agencies using our e-
rulemaking program.
    After an agency has posted a docket, a member of the public 
may participate in the development of a proposed rule by 
entering a comment and/or uploading relevant files through 
Regulations.gov. The requirements for submitting information 
vary greatly by agency. Some agencies require multiple fields, 
such as name and address. Other agencies allow for anonymous 
comments. GSA provides a shared technology service that allows 
participating agencies to configure the information flow to the 
needs of their rulemaking policies and processes.
    GSA's primary focus since assuming ownership has been to 
ensure continuity of service to agency partners and the public. 
However, GSA recognizes our responsibility to deliver a secure, 
innovative, and modern platform to agencies, the public, OMB, 
and other stakeholders. We have already awarded a contract to 
assess the current technology platform and design a road map 
for modernization, both for the e-rulemaking and RISC programs. 
The study aims to identify strategies to improve the customer 
experience, better leverage data for analytics, improve 
interactions with other rulemaking technology in other 
agencies, and research emerging concerns around public 
comments.
    As GSA embarks on this technology modernization initiative, 
it is our intent to engage with agencies, Congress, and the 
public to better understand their priorities and concerns as we 
design a road map to improve the efficiency and effectiveness 
of the program. An initial version of that road map should be 
complete by the end of fiscal year (FY) 2020.
    In conclusion, GSA is proud and honored to have been asked 
to take on the role of Managing Partner for e-rulemaking. GSA's 
establishment of a new Office of Regulation Management 
recognizes the high value placed on the integrity of the 
regulatory process as a foundation of our Nation's democratic 
system and our deep respect for the importance of this program 
as a cornerstone of our democratic process.
    Thank you again, and I look forward to your questions.
    Senator Portman. Thank you, Ms. Angerman. Mr. Mancini.

  TESTIMONY OF DOMINIC MANCINI,\1\ ACTING DIRECTOR, OFFICE OF 
 INFORMATION AND REGULATORY AFFAIRS, OFFICE OF MANAGEMENT AND 
                             BUDGET

    Mr. Mancini. Thank you, and good morning, Chairman Portman, 
Chairman Lankford, Ranking Member Sinema, and other Members of 
the Subcommittees. I have proudly served as a career civil 
servant since my first job as an economist at the Food and Drug 
Administration (FDA) in 2000. Among my current duties, I serve 
as the Co-Chair of the e-Rulemaking Executive Steering 
Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mancini appears in the Appendix 
on page 44.
---------------------------------------------------------------------------
    Since the enactment of the 2002 E-Government Act and the 
establishment of the e-rulemaking program in 2003, the 
interagency Executive Steering Committee has helped to set 
long-term strategies, goals, and technologies that support the 
vision and mission of the program. It is in that capacity that 
I thank you for the opportunity to speak about how the Federal 
regulatory system endeavors to provide all Americans and 
interested stakeholders a meaningful opportunity to participate 
in the regulatory development process.
    I will briefly touch on a few general characteristics of 
the system and recent e-rulemaking updates and highlights.
    E-rulemaking is provided as a shared service that is funded 
by the partner agencies with an average annual budget of 
approximately $8 million and a funding mechanism reflective of 
each agency's usage of the system. In addition to the Steering 
Committee, much of the work is done one step down in the 
Advisory Board, and most major decisions, such as budget levels 
and allocations, and major projects, things of this nature, are 
subject to a majority vote in both the Board and the Committee.
    To give you a sense of the scope of the system, in fiscal 
year 2019, the agencies opened over 330,000 dockets for 
regulations and related policies and collected about 1 million 
public comments to Regulations.gov. The usage of the system 
generally goes up each year; however, the number of comments is 
usually driven by a few large rulemakings. As an example, a few 
months ago we did do a brief review that suggested that about 
80 percent of proposed rules received ten or fewer public 
comments.
    As you are probably aware, on October 1st of this year, the 
General Services Administration, as we have discussed before, 
recently became the Managing Partner of e-rulemaking. The 
transition has been successful, and I look forward to working 
closely with our new partners on the opportunities and 
challenges ahead.
    As the Steering Committee considers how to improve e-
rulemaking, GSA leadership, as the program management office 
and co-chair, gives me great confidence because of the 
technology expertise and mission support functions that GSA has 
already demonstrated. This includes, as mentioned, our long-
time partnership with GSA's Regulatory Information Service 
Center in managing RegInfo.gov, the website that discloses to 
the public information about reviews of significant regulations 
and information collections and manages the semiannual Unified 
Regulatory Agenda.
    The Executive Steering Committee Co-Chairs are both very 
interested in looking for ways to improve e-rulemaking to 
increase the functionality of commenting and to improve the 
interaction between the distinct regulatory systems run by the 
Federal Government. To that end, as already mentioned, GSA has 
engaged in a study to look at opportunities for modernization.
    Finally, I would like to briefly discuss challenges 
regarding the ability of the commenting process to continue to 
be an effective way for the public to express their views. We 
know that modern technologies both provide an opportunity for 
the public to participate in the regulatory process in a much 
more accessible way and also has lowered the cost of engaging 
in mass mailing and related activities, some of them 
problematic, that have challenged the agencies. The Executive 
Steering Committee and agency members of the e-rulemaking 
community are always looking for ways to improve the usability, 
security, and integrity of the platform for receiving comments 
from the public. The system does provide tools to the agencies 
that handle some of these types of comments, and we look 
forward to working with a variety of stakeholders to consider 
potential enhancements.
    We have been and are going to continue to take a good look 
at issues such as technologies and policies associated with the 
attribution of comments and other modern challenges to the 
commenting process. I think the mission statement on the front 
of Regulations.gov sums it up well. It says, ``Make a 
difference. Submit your comments and let your voice be heard.'' 
My goal, one I am confident the interagency community shares, 
is to ensure that we continue to effectively provide the public 
that opportunity.
    Thank you again for inviting me here today, and I would be 
happy to answer any questions you have about the e-rulemaking 
program.
    Senator Portman. Thank you, Mr. Mancini. Ms. Boizelle.

   TESTIMONY OF ASHLEY BOIZELLE,\1\ DEPUTY GENERAL COUNSEL, 
               FEDERAL COMMUNICATIONS COMMISSION

    Ms. Boizelle. Thank you. Good morning, Chairmen Portman and 
Lankford, Ranking Member Sinema, and other Members of the 
Subcommittees. Thank you for the opportunity to testify today 
about how the FCC uses the Electronic Comment Filing System 
(ECFS), to collect and review public comments in its 
rulemaking.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Boizelle appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    Like other Federal agencies, the FCC adheres to the notice-
and-comment rulemaking framework Congress established in the 
Administrative Procedure Act of 1946. In conducting 
rulemakings, we are guided by our legal obligations to provide 
interested individuals with a meaningful opportunity to comment 
on our proposals and to respond to their significant factual, 
legal, and policy arguments when we make final decisions. ECFS 
helps us achieve these objectives by facilitating the intake, 
posting, retrieval, and review of public comments.
    From its inception in 1998, 4 years before the E-Government 
Act, ECFS has been designed to maximize public participation in 
rulemaking by making the filing, posting, and retrieval of 
comments as easy, inclusive, and accessible as possible. To 
assist in this effort, we offer an ECFS user guide that 
provides step-by-step instructions for submitting comments. In 
addition, ECFS is available 24 hours a day, 7 days a week to 
file or access comments. It accepts short express comments via 
a text box and longer standard comments in most file formats. 
It automatically posts submissions to the docket for the 
public's consideration. Once posted, ECFS enables users and 
agency staff to search for and review comments via keyword and 
full text searches.
    ECFS's openness is a product both of our legal obligations 
and many decades of rulemaking experience, the lesson of which 
is that robust public input means better regulatory policy. We 
also understand, however, that the more open the system is to 
the public, the more opportunity there is for mischief. We 
actively monitor ECFS to ensure that it is both accessible and 
secure, and that the system's openness does not impede the 
public's or our ability to use the system for its intended 
purpose.
    Among other updates, we have worked to ensure sufficient 
network capacity to prevent system disruptions and improved 
ECFS's search capabilities so those looking to review and 
respond to substantive comments can find relevant materials.
    When we review comments, we focus on their contents rather 
than the number for and against a specific position. An agency 
rulemaking is not a public opinion survey, nor is a filer's 
identity generally critical to our analysis. It is the 
substance of comments that matters, and in particular, what 
they have to say about our proposals. By serving as the 
repository for our rulemaking records, ECFS is integral to our 
efforts to consider relevant material in these proceedings, 
address significant issues commenters have raised, and base our 
decisions on record evidence. Even in rulemakings with millions 
of comments, ECFS has enabled us to comply with these 
requirements and successfully defend our actions in Federal 
court.
    Although ECFS has served us well throughout its history, we 
know that it can be improved. Over the past 3 years, the FCC's 
information technology staff has implemented various changes to 
enhance the system's functionality and security. Even more 
importantly, we have lodged a fulsome review to revamp ECFS 
from the ground up. A cross-bureau working group is leading 
this effort and is now in the process of convening roundtables 
with external stakeholders to ensure that the next generation 
of ECFS is even more accessible, secure, and resilient than the 
current system.
    Among other things, we are exploring changes like the 
implementation of CAPTCHA to distinguish human filers from 
bots, tools to authenticate identities, and the creation of 
docket home pages that highlight comment deadlines and links to 
major filings.
    As we move ahead with our system overhaul, the Commission 
will carefully consider the guidance of the performance audit 
conducted by GAO and the recommendations of the FCC's Inspector 
General and these Subcommittees. We are committed to using all 
available resources to ensure that ECFS is a strong, dynamic, 
and user-friendly platform.
    Thank you again for the opportunity to testify today. I 
look forward to answering your questions.
    Senator Portman. Thank you, Ms. Boizelle. Mr. Bagdoyan.

TESTIMONY OF SETO J. BAGDOYAN,\1\ DIRECTOR OF AUDITS, FORENSIC 
       AUDITS AND INVESTIGATIVE SERVICE, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Bagdoyan. Thank you. Chairmen Portman and Lankford, 
Ranking Member Sinema, Members of the Subcommittees, I am 
pleased to appear before you today to discuss GAO's June 2019 
report on identity information in public comments during 
Federal rulemaking. As part of our overall review which you 
have requested, this is the first of two planned reports by my 
team. Complementary data analytics work continues on the 
identity characteristics of all public comments submitted to 
the 10 selected agencies we reviewed over a 5-year period. We 
expect to report on our results in the fall of 2020.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bagdoyan appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    Federal agencies publish on average about 3,700 proposed 
rules yearly and are generally required to provide interested 
persons an opportunity to comment on these rules. In recent 
years, some high-profile rulemakings have received extremely 
large numbers of public comments raising questions about how 
agencies manage the identity information associated with such 
comments.
    The APA governs the manner in which many Federal agencies 
develop and issue regulations, which includes the public 
comment process. While the APA does not require the disclosure 
of identifying information from a commenter, agencies may 
choose to collect this information.
    Today I will highlight our report's four principal 
takeaways regarding how the ten selected agencies we reviewed 
handle identity information and public comments during proposed 
rulemaking.
    First, Regulations.gov and agency-specific comment websites 
collect some identity information, such as name and email 
address, from commenters who choose to provide it and these 
websites also accept anonymous comments. In this regard, the 
APA does not require commenters to disclose identity 
information when submitting comments. In addition, agencies 
have no obligation under the APA to verify the identity of 
commenters should they submit such information with their 
comments.
    Second, 7 of the 10 selected agencies have some internal 
guidance associated with the identity of commenters, but the 
content and level of detail varies, reflecting the differences 
among the agencies. The guidance most frequently relates to the 
comment intake or response to comment phases of the overall 
public comment process.
    Third, within the discretion afforded them by the APA 
selected agencies' treatment of commenters' identity 
information also varies, particularly when posting duplicate 
comments which are identical or near-identical comment text 
with varied identity information. Generally, agencies told us 
that they, one, post all comments within the comment system or, 
two, maintain some comments outside of the system such as in 
email file archives.
    However, within these broad categories, posting practices 
vary considerably, even within the same agency or rulemaking 
docket, and identity information is inconsistently presented on 
public websites. For instance, one agency posts a single 
example of duplicate comments, then indicates the total number 
of comments received; whereas, another agency posts every 
duplicate comment individually with no indication of the total 
number of duplicates received.
    Fourth, selected agencies do not clearly communicate their 
practices for posting comments and identity information. 
According to key practices for transparently reporting 
government data, Federal Government websites should disclose 
data sources and limitations to help public users make informed 
decisions about how to utilize such data. Without transparency 
on posting practices, public users of the comment websites 
could draw inaccurate conclusions about comments, including who 
submitted a particular comment or how many individuals 
commented on an issue. This could limit users' ability to 
participate in the rulemaking process in a meaningful manner.
    In our June report, we made eight recommendations to eight 
different agencies in our review to more clearly communicate to 
the public their policies for posting comments and associated 
identity information to Regulations.gov and agency-specific 
comment websites. The agencies generally agreed with the 
recommendations and described actions they planned to take to 
implement them. At least one agency has actually completed such 
action.
    By more clearly communicating their posting policies, 
particularly regarding identity information and duplicate 
comments, the agencies in our review could help public users 
make informed decisions about how to use comment data as well 
as provide insights about how comments may have informed the 
rulemaking process.
    Chairmen Portman and Lankford, Ranking Member Sinema, 
Members of the Subcommittee, this concludes my remarks. I look 
forward to your questions.
    Senator Portman. Thank you, Mr. Bagdoyan. I appreciate your 
response to our request for the report. I think it is very 
helpful information for this hearing and for the possibility of 
us finding some bipartisan solutions going forward.
    Some of our colleagues have other responsibilities, so 
since I will be here until the end, I will defer to them. 
Senator Lankford, would you like to go now or would you----
    Senator Lankford. I can defer to Josh if he wants to go.
    Senator Portman. Let us go first to Senator Sinema. I know 
she has another Committee where she is supposed to be right 
now. Senator Sinema?
    Senator Sinema. Thank you so much, Mr. Chairman. I 
appreciate that.
    When I am home, I hear a lot of concerns from Arizonans 
because they want low-cost quality health care. They want their 
family and friends to be physically safe and financially 
secure, protecting from fraudsters and scammers. They want 
their kids to get good educations, and they want the 
opportunity to work hard, build successful lives, and create 
businesses. They do not want to spend all their time drafting 
comment letters to the Federal Government when a Notice of 
Proposed Rulemaking is published in the Federal Register.
    Whether as individuals or members of community 
organizations and advocacy groups, Arizonans expect government, 
government groups, and government regulations to work for them. 
When we have a concern, Arizonans expect their voice to be 
heard. Sign-on comments are an important piece in the 
functioning of the representative democracy, and it must be 
afforded the attention and care that it deserves.
    My first question is for Mr. Mancini. As we discuss ways to 
improve the commenting process so that it is not abused or 
manipulated by bad actors, what can agencies do today to make 
sure that legitimate commenters are better heard?
    Mr. Mancini. Thank you, Senator, for that question. I do 
think that as the Co-Chair of the Executive Steering Committee 
I would like to say that I will defer to the particular 
agencies on their particular policies, but I do think that in 
most cases the agencies have the ability to identify and 
discuss mass mailing campaigns, for instance, in which they can 
say whether something is 60 or 70 percent like the model 
versions. This has always been the case. My recommendation 
because of some of the issues that we have been talking about 
here, are that actually the system, if they are able to 
identify all these other activities, an individualized comment 
that is personal and not duplicative of other comments actually 
does get a decent amount of attention now. We, as an 
organization, believe that the agencies actually look forward 
to seeing those types of individualized comments.
    I take your point about how that might be more difficult 
than to depend on an advocacy organization, but those are the 
types of comments that are not duplicative, that still can 
stand out in rulemaking records.
    Senator Sinema. Thank you. What additional direction can 
OMB provide agencies to make sure that they are taking account 
of all serious and relevant comments while filtering out 
submissions that are irrelevant to the issue at hand?
    Mr. Mancini. Thank you again for that question. I have seen 
the report this morning. I have not digested it. I do think it 
has very interesting recommendations regarding whether we 
should provide more guidance on this issue, and we are going to 
take that very seriously.
    As my Co-Chair said, and as I mentioned, we do like to try 
to drive toward consensus in the agencies, but I can tell you 
that us providing more guidance to systematize and to make sure 
that the agencies have a policy in place I think that is a 
relatively good recommendation that we are going to take 
seriously.
    Senator Sinema. Thank you.
    My next question is for Ms. Boizelle. In order to provide 
greater understanding and access by private citizens to 
comments that are already submitted by the Electronic Comment 
Filing System, what additional authority or guidance do you 
need to make sure that you are complying with the 
Administrative Procedures Act and the E-Government Act while 
filtering out those fraudulent or irrelevant comments?
    Ms. Boizelle. Thank you, Senator, for that question. The 
Committee's report is very helpful in that regard, as is the 
GAO report on agency comment systems. We believe that we have 
the tools to improve the Electronic Comment Filing System so 
that comments are received, posted, and easily accessed once 
they appear on public dockets.
    We believe that that is really a matter of search 
functionality and that if we can deploy our resources to 
optimize the search functionality on our platform, individuals 
looking to access comments that have already been submitted and 
respond to those comments will be able to do so.
    Senator Sinema. Thank you.
    My next question is for Mr. Bagdoyan. The GAO report you 
discussed in your testimony highlights that duplicative 
comments, mass mailings, and letters with more than one 
signatory received different treatment depending on the agency 
because of the discretion that is afforded under current law. 
As we know, many people do not have the time or energy to write 
their own comment letters, and so when they join a campaign, 
they may not know how the group will package their comments, 
but they do expect the agency to account for their comments and 
their opinions.
    The report noted the procedures at the EPA, the Consumer 
Financial Protection Bureau (CFPB), and sub-agencies located 
within the Department of Labor, so for those audited agencies 
without guidance, how do they handle duplicative comments, mass 
mailings, or letters with more than one signatory?
    Mr. Bagdoyan. Sure. Thanks for your question, Senator. I 
would respond that the six remaining ones essentially operate 
on an institutional knowledge basis, past practice and 
experience, again, using their discretion under their 
interpretation of the APA. I would leave it at that. They 
employ a variety of formats and measures as we describe in our 
report from June 2019. It is basically how they have chosen to 
do business in this regard.
    Senator Sinema. Thank you.
    Mr. Chairman, my final question is for Mr. Mancini again. 
As the Co-Chair of the Executive Steering Council of the 
Federal Docket Management System, has there been or is there 
now more discussion regarding standardization across agencies 
to treat these kinds of mass mailings and comments?
    Mr. Mancini. We have had a significant amount of discussion 
about that issue, including a couple of the recommendations in 
the report that we have been discussing. We have not made any 
major changes to the system at this time, but, yes, we have 
taken these issues seriously and have actually done, for 
instance, a technology review to at least ensure that the 
current tools that we have can at the least identify even some 
of the potential technologies that we are talking about here, 
can identify comments that are actually generated through some 
sort of automated process.
    Senator Sinema. Thank you.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Sinema. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Thank you to you 
and Chairman Lankford for holding this hearing today and for 
this important work and for the Subcommittee's report, which 
is, I think, eye-opening and also terrifying.
    I am perhaps more familiar with the comment and rulemaking 
procedure and the comment submission process than I might 
otherwise like to be, having formerly practiced in this area of 
law when I was in private practice. It is troubling that the 
rulemaking process for Federal agencies has become so 
inundated, as the report sets out, with profane, abusive, and 
sometimes downright fraudulent commentary. I think today's 
hearing is very important.
    Mr. Bagdoyan, let me start with you and pick up on 
something that Senator Sinema was asking just a second ago. In 
June of this year, your agency made recommendations to eight 
other Federal agencies about how they might improve their 
comment posting policies. As of today, as I understand it, only 
one of those eight has actually implemented any of your 
recommendations, although I gather that all of them mostly 
agreed with the recommendations that the GAO issued. Can you 
tell me, is there any indication that the other agencies will 
follow GAO recommendations? If so, when?
    Mr. Bagdoyan. Sure. Thank you, Senator Hawley, for your 
question. I will mention that the Securities and Exchange 
Commission (SEC) is one agency that has taken action. They have 
provided us with sufficient documentation for us to make a 
judgment that they have met that recommendation as intended.
    We have an extensive tracking process for how agencies 
implement our recommendations. It sometimes takes a number of 
years for them to get around to doing that. We measure progress 
on intervals as frequently as 6 months where we work through 
our agency liaisons to get information on the latest status of 
how they will implement recommendations. We take them at their 
word that they did agree, and that was a sincere agreement, of 
course. Then we, as I said, use the formal follow up process 
that we have. We track them electronically. We update them. I 
have to sign off on the status when it comes in. Then we employ 
old-fashioned pestering, actually, to get them to comply.
    Senator Hawley. We will be happy to join you in that 
pestering, so we will continue to monitor the progress there. 
Thank you for the work that your agency has done on this.
    Ms. Boizelle, let me turn to you. The report that the 
Subcommittee is discussing today was initiated after the FCC, 
as you know, received nearly 24 million comments in just one 
rulemaking proceeding back in 2017, which is just 
extraordinary.
    Let me just ask you, is it true that almost 8 million of 
those came from email addresses that were associated with, I 
think it is, FakeMailGenerator.com? Is that right?
    Ms. Boizelle. That is our understanding, yes.
    Senator Hawley. Is it true that more than 500,000 of the 
comments were associated with Russian email addresses?
    Ms. Boizelle. That is my understanding, yes.
    Senator Hawley. Is it true that more than 2 million 
comments submitted to the proceedings used stolen identities?
    Ms. Boizelle. I believe you are referring to a recent 
article, and that is my understanding based on those 
allegations.
    Senator Hawley. Now, the Subcommittee report notes that 
your agency has a general policy that it should, and I am 
quoting now, ``accept and post online all comments it receives, 
including duplicates and near-duplicates and comments 
containing copyrighted, profane, and irrelevant material.'' The 
report also notes that the FCC has accepted and posted files, 
some of which contained viruses, which, of course, are 
dangerous to the general public.
    In your written testimony, you note that the FCC's 
Electronic Comment Filing System has been designed to maximize 
participation by making the submission and posting of comments 
as easy and inclusive as possible. I wonder if you could just 
speak to some of the tradeoffs you think that policy engenders 
and presents to us given the threats and abuses that we are 
seeing.
    Ms. Boizelle. Yes, thank you for that question, and I would 
be happy to address it. We have historically adopted a policy 
that errs on the side of openness and inclusiveness and 
accessibility out of a desire to afford members of the public 
the opportunity to meaningfully participate in our rulemakings. 
We believe that public input is of great value.
    We understand that values like openness must be balanced 
against other values, and sometimes those values are competing 
values like security. We are presently evaluating the balance 
that we have historically struck and exploring how to 
recalibrate that balance to better address the issues that the 
Subcommittee report identified.
    Senator Hawley. Can you be a little more specific on that? 
What specifically are you considering, what steps are you 
considering to ensure that you separate real feedback from 
fake, fraudulent, and sometimes in the case of viruses 
downright threatening comments, posts, ``participation''?
    Ms. Boizelle. Sure. Well, we have convened a cross-bureau 
working group at the FCC, and they have been tasked with 
overhauling ECFS to address the issues identified in the 
Committee's report and covered in various media outlets.
    They are currently convening roundtables with external 
stakeholders to explore solutions to the various issues that 
have been identified to ensure that we address them, but that 
the platform remains user-friendly. Some of those possibilities 
include CAPTCHA, like I mentioned during my oral testimony, 
identity authentication, and optimizing our search 
functionality to enable people to screen out profane, 
offensive, or threatening comments. We are exploring a variety 
of options, and we are committed to ensuring, as I said, that 
the next generation of ECFS does strike a better balance 
between openness and security.
    Senator Hawley. Thank you very much. Thank you all for 
being here.
    Thank you, Mr. Chairman.
    Senator Portman. Great questions. Senator Lankford.
    Senator Lankford. Mr. Chairman, thank you. Thanks to you 
all for your preparation on this. There is a lot to be able to 
dig into, so let me try to just randomly jump in here as we 
can.
    As I go through Regulations.gov and the FCC programs you do 
find obviously a lot of helpful comments from people who are 
actually going through it, trying to contribute, trying to be 
able to get in exactly what it is designed for. You also find a 
lot of folks who just have an opinion on it one way or the 
other. They want to be able to voice their opinion, like it, do 
not like it. They are not necessarily helpful in helping design 
the comments to be helpful for, but they want to be able to 
contribute and to be able to engage. Then you do find, as 
Senator Hawley had mentioned, individuals that have posted 
viruses to it. Clearly, that is an opinion as well, that they 
just want to carry out whatever they choose to be able to carry 
out when they choose to come to the site, foul language, Elvis 
Presley, noting it multiple times, by the way, putting in 
different comments, proving he is still alive, that is right, 
because he is still posting on Regulations.gov.
    The challenge that we have here is trying to figure out how 
to get to the public interest and how to also be able to get to 
allowing comment and interaction among people to say, ``I saw 
this comment. That is a good idea. Let me comment on that 
comment.''
    Now, I wish this was something that was only at 
Regulations.gov. You can go to any one of our Facebook pages, 
pick any one of us, and see the comments that are posted there 
and also see a lot of energetic involvement. This is not just 
an issue with the comments around all these sites. What we are 
trying to figure out is how to be able to allow the American 
people to still be able to engage and, as you mentioned, Ms. 
Boizelle, to try to be able to allow people to put their 
comments there, but also filter through and be able to find 
what is helpful in it.
    Let me just ask some basic ideas. You talked before about 
the famous ``I am not a robot'' filtering here to be able to 
identify how to be able to filter out bots. Is that in process 
at this point?
    Ms. Boizelle. We are not currently using CAPTCHA, but it is 
under consideration by our working group as a means of 
distinguishing human filers from bots.
    Senator Lankford. OK. Is that a conversation for 
Regulations.gov?
    Ms. Angerman. Yes, GSA is currently looking at all of the 
options available to us to address some of these issues.
    Senator Lankford. OK, but that is one of the considerations 
there?
    Ms. Angerman. Yes, sir.
    Senator Lankford. For the FCC, is there a consideration of 
joining Regulations.gov, cooperating together on that? Or is 
there a need to be able to keep those two separate since 
Regulations.gov does cover so many other agencies?
    Ms. Boizelle. We believe that the Electronic Comment Filing 
System is the right tool for the FCC. It was designed by the 
FCC to meet our unique needs. We handle rulemakings and comment 
volumes of a different scale than many of our peer agencies. In 
addition to that, we use robust reply comment periods, and we 
have a robust ex parte process in which people are permitted to 
meet with Commissioners after a comment period closes and then 
file summaries of those meetings on the docket.
    We have slightly different needs than other agencies, and 
ECFS has been tailored to satisfy those needs. We obviously 
also have a lot of experience with our comment platform, as do 
our external stakeholders. We are not presently considering 
joining Regulations.gov because we believe that ECFS can be 
improved to address----
    Senator Lankford. Is FCC still allowing executable files to 
be uploaded into the system, not just a Word file or a PDF but 
executable files as well?
    Ms. Boizelle. I am really glad that you asked that 
question. No. In fact, our IT staff combed through ECFS, and 
they were not able to identify any executable files. As of 
September 2017, we stopped accepting them, and all submissions 
are screened----
    Senator Lankford. As of September 17th of this year?
    Ms. Boizelle. As of September 2017.
    Senator Lankford. 2017.
    Ms. Boizelle. We stopped accepting any executable files. 
Our IT staff looked at ECFS, looked at legacy submissions, and 
was not able to identify any infected executable files. At this 
time all submissions are screened by anti-virus software.
    Senator Lankford. Good.
    Ms. Boizelle. Anything infected is quarantined and not 
posted to a public docket. If anyone has information about 
files that are infected on our dockets, we would greatly 
appreciate being directed to those files so that we can rectify 
them.
    Senator Lankford. Great. Thank you for that. That would be 
helpful.
    Do you all allow executable files in Regulators.gov?
    Ms. Angerman. No, we do not.
    Senator Lankford. The question here is, as you mentioned, 
Ms. Boizelle, it does not matter who the name is. It is the 
comment. We are looking for the quality of the information to 
try to be able to get that information in. Is there a need to 
be able to help the American public to be able to filter this 
out? Because you have systems to be able to go through it, you 
have staff that can go through it, and to be able to say, OK, 
that is not relevant, that is not relevant, this is relevant. 
If individuals looking at the comments want to be able to 
comment on other comments and say, ``That is a good idea, let 
me add to it,'' they have to go through at times thousands, or 
millions on a rare occasion, to be able to look through all 
those comments.
    Is there a need to be able to have an opportunity for 
individuals to say if you want to just comment agree/disagree 
like a Facebook page and just say like/do not like, is there a 
need to be able to allow people to say, ``I like this, do not 
like this''? They are not making a comment, they are just 
making a reference on it, but if you really want to make a 
helpful comment we want your text on that? Would that help 
people to say, ``I express my opinion, but I really do not have 
something to contribute,'' that also helps other people to be 
able to look at comments?
    Ms. Boizelle. It might be useful to individuals looking to 
express support for or opposition to a particular agency 
proposal. We treat agency rulemakings as a process that focuses 
on the substance of comments rather than the number of comments 
in support or in opposition. It is well established that 
rulemaking is not intended to be----
    Senator Lankford. It is not a vote----
    Ms. Boizelle [continuing]. A plebiscite. While it may be of 
utility to people looking to weigh in with respect to our 
review of substantive comments in the record, I do not think 
that it would make an enormous difference.
    Senator Lankford. OK. What about that idea?
    Ms. Angerman. I would agree, and I also think that is one 
of the things that GSA is prioritizing in our new role, is to 
really engage with the user community and the public and others 
who actually use the site to figure out what would make it a 
more user-friendly experience.
    Senator Lankford. OK. Do you all do any kind of two-factor 
authentication or verification of the identity in the sense 
that if a person is going to contribute a comment, they would 
also contribute an email address, and then they would get a 
code basically delivered to that email address to make sure it 
is real, and so if there is going to be interaction between the 
agencies and this individual, we know this is actually a real 
working email address that they gave us and we cannot verify 
whether that is that person's name or not, but at least we have 
some way of contacting back and a working address?
    Ms. Angerman. Certainly, two-factor authentication and 
other options are things that we will be looking at over the 
course of the modernization assessment that we have already 
begun.
    Senator Lankford. What about Advance Notice of Proposed 
Rulemaking (ANPRM) as you all start thinking this through? Does 
that help? Not help? Have you seen any kinds of trends? 
Obviously, you have been at this all of less than a month at 
this point. Do we have to look at helpful comments coming in 
early or comments coming in later? Which one are a greater 
asset to the agencies as they are going through--advanced early 
comments or comments after the proposed rule?
    Ms. Angerman. I do not know yet, but it is certainly 
something that we will go back and investigate.
    Senator Lankford. OK. Let me defer back, and I may have a 
couple of follow up questions as well.
    Senator Portman. Great questions. This is a difficult area 
because, as has been noted this morning, when you are accepting 
comments online, particularly when you are asking for 
consistency between the agencies, which is something Mr. 
Bagdoyan has referenced, you are going to run into this 
difficult issue. It is sort of a tightrope. You want to allow 
for people to express themselves, and yet you want to be sure 
that the legitimate, real comments, as opposed to comments that 
are not legitimate, are getting through.
    Let me start with one of the issues that is clearly a 
problem, and I think that chart\1\ that is up there probably is 
about this, which is false identities. People are stealing 
other people's identities and then issuing comments. By the 
way, we found examples of this with regard to our colleagues. 
We found that Senator McConnell had submitted some comments. We 
asked him if they were his, and he says they were not, but also 
other colleagues. As we noted earlier, that includes Donald 
Trump, Barack Obama, my favorite, LeBron James, and a number of 
other people. Identity theft is an issue again that is not only 
found with regard to comments to the Federal agencies and it is 
a difficult issue, but we have to figure out a way to deal with 
it.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Portman appears in the Appendix 
on page 215.
---------------------------------------------------------------------------
    The FCC has responded by telling people who complain that 
they should write their own comment, as I understand it. In 
other words, if you actually find out that your identity has 
been taken and that your name has been used, the response has 
been, make your own comment. A number of those people do not 
have a comment to make. They do not have an opinion on the 
rule, so that does not seem very satisfying. I do not think 
anyone should be required to engage in a regulatory comment 
period just because their identity was stolen if they do not 
otherwise choose to.
    Our report found that no agency except for CFTC reported 
these complaints to law enforcement. That seems to me to be an 
issue. If you know that it is identity theft, why wouldn't you 
report that?
    What should Regulations.gov and what should the FCC do 
about that? Do you need any additional authorities from 
Congress to be able to report the identity theft? Ms. Angerman.
    Ms. Angerman. Thank you for that question. GSA's role is to 
provide the service to the agencies, the rulemaking agencies, 
to be able to support their own rulemaking processes, which I 
think we have highlighted they vary greatly in terms of the 
kinds of data that agencies require. What GSA's role can be in 
that context is to ensure that when we are alerted to there 
being any sort of issue, whether it is a false identity or 
whether it is a threat, we ensure that our help desk is very 
attentive to those and immediately let the rulemaking agency 
know when something has been flagged to us so that they can 
institute their own processes in terms of how they choose to 
escalate or address that problem.
    Senator Portman. OK, but you are not answering the question 
about whether you believe that it should be standard policy if 
someone identifies that there is an identity that has been 
stolen, that that be reported to law enforcement. Is that 
something you think makes sense as you are looking at the 
policy?
    Ms. Angerman. I think it would make sense, but GSA is not 
in the role to weigh in on whether law enforcement or any of 
those agencies should become involved.
    Senator Portman. This goes to you, Mr. Mancini. Again, 
thank you for being here, and as you may know, since I had this 
discussion with OMB, I think OMB can play a bigger policy role 
here. I appreciated your comments earlier about the need to 
have a consensus-driven process and work with all the 
stakeholders. Ultimately there needs to be a policy decision 
made here. If you need additional authorities, I think Congress 
is very interested, particularly after the GAO work and after 
this report, to try to be helpful. Do you think that an agency 
should report claims to law enforcement?
    Mr. Mancini. Again, actually, Senator, I am a little bit 
hesitant as, for many good reasons, OMB does not usually opine 
on enforcement decisions of that nature. I do think, however, 
that--I think that you have identified a potentially good need 
to have more general policies in this area across the 
government. I think that the ultimate decision about what a 
person has discovered--I think your report mentioned CFPB as 
well--I think really does, for good reasons, reside at the 
agency itself. I would be happy to take this back to the 
Steering Committee, I think, if we can standardize that a 
little bit more.
    Senator Portman. I think that is a good idea, standardize 
it a little bit more. In fact, I think standardization, another 
topic more broadly that was raised by Mr. Bagdoyan this 
morning, is important. It seems to me that people ought to 
know, if they are submitting comments to the FCC, submitting 
comments to the EPA, or submitting comments to other agencies 
or departments, that they are being treated equally. In other 
words, there is a consistent policy of the Federal Government.
    Mr. Bagdoyan, maybe you can comment on that. You indicated 
that you had made suggestions to several agencies, and one 
actually complied. Part of what you are trying to do, as I 
understand it, is to try to drive some consistency and 
standardization across the agencies.
    Mr. Bagdoyan. Right. Thank you, Mr. Chairman. You are 
absolutely right. The recommendations in our June 2019 report 
we view as a starting point, if you will. Our ongoing work, as 
I mentioned earlier, involves very extensive data analytics. 
For example, we have a survey ongoing of actual commenters who 
we are approaching to see whether they made the comment 
associated with their identity or not. We are hoping that will 
provide us with insight into what else might have to be done. 
Parallel to that, we are actually crunching, so to speak, data 
related to approximately--right now not a final count, I must 
admit--about 60 million comments that were submitted to the 10 
agencies during the 5-year period I mentioned, 2013 to 2017. As 
you can imagine, that is a considerable lift, so that is 
another source for us to obtain insights about what really went 
on here. The survey respondents have been generous with their 
responses. I think the response rate is very good. We will be 
able to project, as things stand right now, the results of that 
survey. We are optimistic that we will have a lot more to work 
with to develop additional recommendations if necessary.
    Senator Portman. We would be very interested in seeing the 
results of that survey. We talked about the Wall Street 
Journal's work on this, investigative reporting, and I think 
the number was 72 percent, if I recall correctly, of people who 
said, ``That was not me.''
    Mr. Bagdoyan. Right. Our final report will come out in the 
fall of next year, but, of course, we have been in touch with 
staff over the past year, actually, filling them in as to where 
we are, and we would be happy to come up and chat some more 
about where we are with that.
    Senator Portman. Our goal is to end up with policy 
suggestions and legislation that actually helps you to be able 
to do your jobs, and that data would be very helpful in that 
regard.
    In terms of consistency, Ms. Boizelle, understanding your 
comment that the FCC is different than other agencies in some 
regards, it seems to me that consistency makes sense. Let us 
assume that you do have your separate approach to this and that 
the other agencies are under a now GSA-driven process and that 
OMB and others providing policy guidance are ensuring they have 
consistency. Shouldn't you be talking to each other? One of the 
things that drives me crazy is that it seems to me that you are 
off doing your own thing, and yet you have a process that Ms. 
Angerman talked about today with Regulations.gov, and you are 
not sharing best practices and you are not cooperating. Doesn't 
that make sense at a minimum?
    Ms. Boizelle. Absolutely. There is great value in 
interagency communication and coordination. My understanding is 
that our IT staff does have monthly and weekly conversations 
with IT folks at other agencies. I do not know what the scope 
of the communication is, but I absolutely agree. We support 
coordination on these issues.
    Senator Portman. Mr. Mancini has something to say.
    Mr. Mancini. I will add that one thing that I will take 
from this conference is we actually have had a good bit of 
discussion--I will refer to the technical folks--about CAPTCHA, 
and that is--we were talking before the hearing that maybe as 
soon as we get through this that we need to have a serious 
conversation about that because there are some tradeoffs in 
that technology, but that is one specific area in which I think 
that we really need to get to the bottom of where they can 
provide technology that just stopped kind of the non-human 
interaction with it. I will definitely go forward on that.
    Senator Portman. I think that is a great example of where 
sharing best practices and analysis and coming up with a 
consistent approach would be in the interest of people who have 
legitimate comments to be made.
    Let us talk about CAPTCHA for a second. We talked about the 
500,000 emails received from Russian email addresses. We did 
not talk about the fact that there is lots of evidence that 
bots are involved here. As an example, the Pew analysis found 
that on nine occasions, more than 75,000 comments were 
submitted at the very same second, which looks like an 
automated spamming campaign to me. This was the restoring 
Internet freedom proposal. There is no question that millions 
of fake comments are coming in, and you talked a little bit 
today about to keep bots from posting on your platforms, it 
might make sense to install CAPTCHA or other software, not just 
to focus on CAPTCHA, the one that most of us are aware of. A 
lot of us have to use it a lot in order to access a website's 
platforms.
    Why would we not turn to that? What is the negative? It is 
used constantly in service organizations around the world, not 
just in government agencies but for-profit entities. What is 
the negative to using it? Is it cost? Is there better 
technology out there? Why would you not want to use that kind 
of software to be able to ensure you have a person at the other 
end of the comment? Ms. Boizelle, then Mr. Mancini, and Ms. 
Angerman.
    Ms. Boizelle. As I said, we are considering CAPTCHA. We do 
understand the problem of bot submissions spamming our ECFS 
dockets. It has been described to me that sometimes bot 
communications are comparable to a modern postcard campaign, 
and so my understanding, limited as it is in the technological 
context, is that bots are not always inherently nefarious. 
Nonetheless, we agree that there is an opportunity for 
significant abuse and mischief, and we are exploring ways to 
limit bot activity on our dockets.
    In addition to CAPTCHA, we also are exploring whether to 
eliminate an open application programming interface which we 
use to allow the submission of mass comments from entities like 
grassroots organizations, and we are considering eliminating 
that option because now we believe that our system can accept 
submissions from organizations like that without dealing with 
machine-to-machine communication.
    Senator Portman. Mr. Mancini, do you agree that bots are 
not inherently bad?
    Mr. Mancini. I really do not have a general opinion about 
that. I will say that in the e-rulemaking community there was 
one instance--I believe it was FDA so I will defer to them if 
they have more details about this--that was a similar 
situation. They were getting bot traffic, and it was really 
overwhelming the system, and they actually turned off some 
access to the system, and apparently the help desk at EPA at 
the time got a call, and it was apparently a legitimate--well, 
they said they were a legitimate person wanting to comment and 
provide a mass mailing campaign. That said, we do have one 
example. One example certainly is not a trend.
    We have seriously considered and are continuing to 
seriously consider some sort of human verification process. I 
will say--and maybe it was the technology, and, again, I will 
defer to the Program Management Office (PMO)--that one of the 
technologies, the CAPTCHA technology that they were looking at, 
actually there were online work-arounds that you could 
purchase, that you could actually spoof the CAPTCHA, something 
like a 90-percent success rate, which I will note is probably a 
lot higher than I actually do when I have to use one of our 
human things.
    The short version, it is not an easy question to answer 
from a technology point of view, and the PMO and the agencies 
have been looking at this. We have not really found that one 
that strikes the balance yet.
    Senator Portman. Senator Lankford.
    Senator Lankford. It is very helpful to be able to get the 
insight on this. Let me walk through just a couple of the 
questions that I have.
    Ms. Angerman, you had mentioned before that not every 
agency has the same amount of information that they are pulling 
in. Some are getting names; some are not getting names. Some 
are getting addresses; some are not. Can you give me the 
extremes of one side that does very little and one side that 
does a lot? What do you see the most that is gathered?
    Ms. Angerman. Thank you for the question. The extremes are 
an agency could just require the comment itself and no other--
--
    Senator Lankford. No name, totally anonymous.
    Ms. Angerman. Totally anonymous. Some require a name, but 
there is little validation, the point of this discussion, to 
verify that that name is a person who is alive or is actually 
attributable to the person making the comment. If they decide 
that they want to require a name, they can also opt to provide 
address and other information, email as well.
    Senator Lankford. Is that made public?
    Ms. Angerman. It is up to the agency, ultimately, to 
decide, the rulemaking agency to decide what information is 
made public as a result of the comment process.
    Senator Lankford. OK. Do any of the agencies ask if you are 
an American citizen that is making the comment?
    Ms. Angerman. I do not believe that that is a question on 
Regulations.gov
    Senator Lankford. Does that matter?
    Ms. Angerman. At this point it has not been raised to my 
knowledge that the Steering Committee has made that a 
requirement for the system.
    Senator Lankford. In the protection of the personally 
identifiable information (PII), for those that do gather 
information but are not making it public at that point, is 
there any standard for how that information has to be protected 
to make sure someone cannot get through the system to be able 
to get access to that?
    Ms. Angerman. GSA is the custodian of the data, which means 
we are responsible for ensuring that the data is protected, 
that there is disaster recovery in place, that there is 
continuous monitoring and auditing of the system. Ultimately, 
the data itself and the comments are owned by the rulemaking 
agency.
    Senator Lankford. Are the comments posted immediately, or 
is there some filtering where someone looks at it and evaluates 
before this goes live, or they just type it in, push the 
button, and it goes live immediately?
    Ms. Angerman. No, there is a whole process that the agency 
goes through. Those are the analytics and the procedures that 
they implement as they are evaluating the comments.
    Senator Lankford. How long is the delay before that comment 
goes live?
    Ms. Angerman. It is unique to each agency.
    Senator Lankford. Give me extremes on that. Two minutes? 
Twenty days? Or is it----
    Ms. Angerman. I think that would be a very good example of 
the extremes.
    Senator Lankford. OK. FCC, is that the same? Do they go 
live immediately or are they filtered, reviewed by someone 
before they go live?
    Ms. Boizelle. They are not posted immediately, but it is an 
automated process, so it is done without human intervention. 
Comments that are filed are posted every 2 hours.
    Senator Lankford. OK. They are just all pooled together and 
then put up all at once every 2 hours to be able to----
    Ms. Boizelle. Correct.
    Senator Lankford. Foul language comments, attacks on Ajit 
Pai, which we had tons of that come in, personal attacks, 
threats on his life, those are automatic. No one is kind of 
filtering through those to be able to say, hey, that is really 
not relevant?
    Ms. Boizelle. That is correct.
    Senator Lankford. Is that something that can and should be 
fixed? Obviously when you get a massive amount of people that 
start making comments, that makes it much more difficult to be 
able to go through and be able to filter that. Is there a need 
for some human interaction?
    Ms. Boizelle. As you indicated, the volume of comments 
makes putting human eyes on each of them untenable in most 
circumstances.
    Senator Lankford. I am struggling through the comment that 
has been made about mass mail campaigns, and when I go through 
Regulators.gov, there will be times--and some rules will have 
every single name on it, and some of them will list mass mail 
campaign, and then you can go into that and start seeing all 
the names that are identified and such. If this is not really a 
vote, like I prefer/I do not prefer, but you are really looking 
for comments, and really it is more ideas, how can this be 
improved? How do we need to make sure that there are changes 
and things that we need to pay attention to before we finish 
this rule? Why does it matter about a mass mail campaign? Is it 
really a head count issue quietly in some of the agencies? Is 
it just about improving the quality of the regulation?
    Mr. Mancini. I think as mentioned before, as a general 
matter it is not a vote. It is about the quality. I will answer 
in part with an anecdote, though. We did have in the 
Administrative Conference of the United States a conference on 
this issue. I think it was about this time last year. There 
were a lot of discussions about how to discourage that kind of 
mass mailing campaign and that it is not actually a useful 
input into the rulemaking process.
    Then someone in the audience said, ``Well, look, I am an 
advocacy organization, and I actually value the ability for my 
constituents to participate, even if for just support or 
something like that.'' That was actually a learning experience 
for me because I think that there is in the public--and, again, 
I am not going to speak to whether it is useful for influencing 
the rulemaking, to actually just express their views in that 
way.
    I do think that some of the challenge that we have heard is 
that, for instance, a perfectly legitimate advocacy 
organization can have an attachment that everyone has agreed 
that they have signed on to this, but there is also modern 
versions of that and maybe not nefarious versions of that where 
they mix and match the comments, they make it look like it's 
more of a grassroots uprising. I think the term is 
``astroturfing.'' I think that is the challenge--what we have 
heard is actually support for maintaining that ability, just 
express their opinions in the rulemaking process with limiting 
the worse ways that that can be done.
    Senator Lankford. Right. If we all marched over today to 
the National Archives, they would take us to giant petitions 
that used to come to Congress where people would literally go 
around different States when Congress was discussing a law in 
the 1800s, and they would get people to sign names on those 
petitions, and often there would be false names of exactly what 
we are talking about today. This is not something new. They 
would send the petition up to Congress and would store it 
there, and someone would deliver it in a speech and say here is 
the petition of how many thousands of people oppose this or 
support this. I have no issue with that. That is a beneficial 
thing, and it has always been around since the beginning of our 
republic.
    The challenge that I have is when we are talking about 
rulemaking, we want the interaction of people that have ideas, 
that say, hey, there is a better way to do this, there is some 
engagement. This person gave a really good idea. I want to 
comment on their really good idea. Here is something that could 
even be improved on that because that helps regulators put out 
better regulations.
    What I am trying to figure out is how we can sort this 
comment process and say there are people's opinions that are 
here, like/do not like, support/do not support from ideas, and 
to be able to figure out how we can keep that interaction. If 
that is something that you all can consider as you are going 
through the process, but also helping people understand, hey, 
this is not a big massive vote. A regulation comes from 
statute, and so this regulation is coming in some form because 
a statute requires it. If you want to express I like/do not 
like, go back to our offices, which people are not shy to do 
either, and to say change the statute. This is really about 
making a better regulation. Does that make sense? Somehow to be 
able to make that clear to people, but then to say this is 
resulting from a statute that we are carrying this out. It is 
not just an up-down that is coming from it, but here is a way 
to be able to improve it. Make sense?
    Mr. Mancini. Thank you, Senator. That makes a lot of sense. 
I am going to take what we have talked about at this hearing 
and absolutely try to gather the Executive Steering Committee 
and see if there are better ways, because I think that the 
agencies in an ideal world are already striving to do that, to 
try to clearly identify those that are part of the mass mailing 
campaigns, for whatever legitimate reason, from the individual 
``here are the insights I want to provide'' kind of comments. I 
think we are taking this very seriously. I think we can think 
about enhancements on that point.
    Senator Lankford. For the agencies to be able to filter, 
that is one thing. For the American public, for them to be able 
to interact is a different thing, because it is harder if there 
are 500 comments on something for them to go through each one 
and to be able to filter, hey, that is not relevant, not 
relevant, especially when you have to open each one of them up 
and to be able to go through it, because in Regulators.gov you 
are only getting the first couple of lines there, and so you 
have to open each one up and determine is this just a comment 
or is this an idea beneath it. It is a much slower process for 
them than it would be for the agencies. If we are going to have 
interaction, help the American people to have interaction, but 
just know this is a vote, whether I like it/do not like it, 
this is an idea, and we can have interactions over here. 
Anyway, grateful for that.
    Ms. Angerman, do you have any comment on that?
    Ms. Angerman. I just want to say I think that is an 
excellent kind of definition of human-centered design. One of 
the reasons we are really excited to have this program at GSA 
is that we are really leaning forward at implementing human-
centered design with many of the other services that we 
deliver, and I think we can do the same with this program.
    Senator Lankford. OK. Senator Portman, thanks for pulling 
all this together. You and I both requested this, but you 
really led on requesting the initial study on this, and I 
appreciate you taking the lead on this.
    Senator Portman. Thank you. As I said at the outset, this 
is an issue that certainly goes across our two Subcommittees--
one, the investigative one, and two, the way in which our 
regulatory system can work better. More broadly, this affects 
our democracy in fundamental ways, so I appreciate the 
witnesses being here today. I think we have been able to 
identify a number of the problems. I think the report does a 
good job with that. I think most Americans would be shocked to 
learn about the abuse of the system, for instance, the Wall 
Street Journal survey that 72 percent of the people who were 
asked, ``Did you submit this comment?'' said, ``It was not 
me.'' The identity theft issue is obviously one we have to 
focus on, allowing people access, but at the same time not 
having their comments be diluted by comments that are not real, 
that are fake comments.
    I know, Mr. Bagdoyan, you are going to do additional 
surveys. We are going to be eager to get your information about 
what has been the history here and how can we solve these 
issues.
    Another thing we have talked about a lot today is 
consistency and cooperation and best practices. You have 43 
agencies, I think, that you are working with, and of those 43 
agencies, there are dozens of different approaches to these 
issues. How do you deal with profane comments? How do you deal 
with comments that are unrelated? How do you deal with identity 
theft? It seems to me consistency is the right thing to do both 
with regard to being sure it is the best approach, the best 
practices, but also for people who are interested in 
commenting, they are not just interested in commenting at the 
FCC or the EPA. They are interested in commenting typically 
with other agencies, and they would need to know that there is 
a consistent way they can get their voices heard. I think that 
is one thing that has come out of this.
    Mr. Mancini, you talked about the willingness to sit down 
now with your task force and talk about the issues that have 
been discussed in the report and in today's hearing. I 
appreciate that. We also want to hear from you on legislative 
ideas. As I said earlier, I think OMB can play a more 
substantive role on the policy side, and you should not be shy 
about doing that. In my view, the consensus-driven process is a 
difficult one. I realize that. It requires leadership. I am 
also pleased that there has been a transfer made from EPA to 
GSA because I agree with what Ms. Angerman said earlier, which 
is that you have this broader responsibility and function, and 
you indicated in response to Chairman Lankford's comments, you 
also have other projects that you are undertaking to try to--
you said ``human-centered,'' meaning about people. We really 
want to hear from people and not have their comments be less 
impactful because of all the noise. This is a challenge area. 
We want to be helpful. We expect to stay in touch with you. We 
are going to be moving forward with some legislative ideas, and 
we need your input for that.
    I want to thank my colleagues, particularly Chairman 
Lankford, for joining us today and for pursuing this, and we 
look forward to working with you going forward.
    This hearing is now over.
    [Whereupon, at 11:27 a.m., the Subcommittees were 
adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
